<html>
<title> - THE FUTURE OF THE OSCE MEDITERRANEAN PARTNERS FOR COOPERATION</title>
<body><pre>[Joint House and Senate Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






     THE FUTURE OF THE OSCE MEDITERRANEAN PARTNERS FOR COOPERATION

=======================================================================

                                HEARING

                               before the

                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2009

                               __________

 Printed for the use of the Commission on Security and Cooperation in 
                                 Europe

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                   Available via http://www.csce.gov
                   
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

75-196                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                  
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               SENATE                               HOUSE

BENJAMIN CARDIN, Maryland,           ALCEE HASTINGS, Florida,
  Chairman                             Co-Chairman
CHRISTOPHER DODD, Connecticut        EDWARD MARKEY, Massachusetts      
SAM BROWNBACK, Kansas                LOUISE McINTOSH SLAUGHTER, 
SAXBY CHAMBLISS, Georgia              New York     
RICHARD BURR, North Carolina         MIKE McINTYRE, North Carolina            
ROGER WICKER, Mississippi            G.K. BUTTERFIELD, North Carolina      
JEANNE SHAHEEN, New Hampshire        JOSEPH PITTS, Pennsylvania      
SHELDON WHITEHOUSE, Rhode Island     ROBERT ADERHOLT, Alabama
TOM UDALL, New Mexico                DARRELL ISSA, California
                          
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                  MICHAEL POSNER, Department of State
               ALEXANDER VERSHBOW, Department of Defense
               
               
               
               
               
               
               
               
               
               
               
     THE FUTURE OF THE OSCE MEDITERRANEAN PARTNERS FOR COOPERATION

                              ----------                              

                             JULY 23, 2009
                             COMMISSIONERS

                                                                   Page
Hon. Alcee Hastings, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Benjamin Cardin, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     3
Hon. Mike McIntyre, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     4
Hon. Darrell Issa, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     5
Hon. Robert Aderholt, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    13

                                MEMBERS

Hon. Gwen Moore, Commissioner, a member of Congress from the 
  State of Wisconsin.............................................     5

                               WITNESSES

William Hudson, Deputy Assistant Secretary for Near Eastern 
  Affairs, U.S. Department of State..............................     5
Sotiris Roussos, Personal Representative on Mediterranean Partner 
  Affairs, OSCE..................................................    13
Joao Soares, President, OSCE Parliamentary Assembly..............    16

 
     THE FUTURE OF THE OSCE MEDITERRANEAN PARTNERS FOR COOPERATION

                              ----------                              


                             JULY 23, 2009

  Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held from 2:01 to 3:25 p.m. EST in 210 
Cannon House Office Building, Washington, DC, Hon. Alcee 
Hastings, Co-Chairman, Commission on Security and Cooperation 
in Europe, presiding.
    Commissioners present: Hon. Benjamin Cardin, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Alcee 
Hastings, Co-Chairman, Commission on Security and Cooperation 
in Europe; Hon. Mike McIntyre, Commissioner, Commission on 
Security and Cooperation in Europe; Hon. Darrell Issa, 
Commissioner, Commission on Security and Cooperation in Europe; 
and Hon. Robert Aderholt, Commissioner, Commission on Security 
and Cooperation in Europe.
    Members present: Hon. Gwen Moore, a Member of Congress from 
the State of Wisconsin.
    Witnesses present: William Hudson, Deputy Assistant 
Secretary for Near Eastern Affairs, U.S. Department of State; 
Sotiris Roussos, Personal Representative on Mediterranean 
Partner Affairs, OSCE; and Joao Soares, President, OSCE 
Parliamentary Assembly.

               HON. ALCEE HASTINGS, CO-CHAIRMAN, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Hastings. It's my distinct honor to convene this 
hearing of the Commission on Security and Cooperation in Europe 
on ``The Future of the OSCE Mediterranean Partners for 
Cooperation.'' I welcome you all here today--and so does the 
thunder, apparently--and commend the leadership of my good 
friend who will be here shortly--who is here now--of Senator 
Ben Cardin, who serves as chair of the Helsinki Commission, and 
my fellow commissioners. We've been joined by Mr. McIntyre and 
others are coming, I believe.
    For the past several years I have served as Organization 
for Security and Cooperation in Europe Parliamentary Assembly's 
special representative for Mediterranean affairs. And I've had 
the distinct pleasure of having been appointed by President 
Emeritus Lennmarker in that capacity, and by the now-president 
of the parliamentary assembly, Joao Soares, also, to the same 
capacity.
    The objectives are to enhance the long-standing 
relationship between the OSCE participating states and the 
Mediterranean Partners for Cooperation that extends back to the 
Helsinki act of 1975 of the Conference on Security and 
Cooperation in Europe, now the OSCE.
    In the succeeding decades the OSCE Participating States and 
their Mediterranean partners have worked to increase mutual 
confidence and develop economic and environmental cooperation 
in order to promote security and stability throughout Europe 
and the Mediterranean basin. It is through this unique forum 
that Algeria, Egypt, Israel, Jordan, Morocco--as my friend from 
Morocco enters the room--and Tunisia continue develop their 
capacity for leadership in the region, all the while exchanging 
expertise with the OSCE participating states.
    Near the end of 2008, I toured all of the Mediterranean 
Partner states, with the exception of Jordan--which I have 
visited on many occasions. During discussions with my 
interlocutors, beginning in Morocco, that I proposed bringing 
them and asking them to come to Washington to have a candid 
discussion about participation mechanisms for their partnership 
with the OSCE and how these might be improved.
    Over the past two days, the proposal that I made last 
December became a reality. High-level delegations of 
parliamentarians and dignitaries and academics from the OSCE 
Mediterranean Partners states--of all of the partner states--
gathered here in the Capitol Visitor Center for the Helsinki 
Commission's ``Seminar on OSCE Mediterranean Partner 
Engagement.''
    These delegations were joined by the gentleman who's 
walking there, now--my president of the OSCE parliamentary 
assembly, Joao Soares of Portugal--and by previously-mentioned 
president-emeritus Goran Lennmarker of Sweden and vice 
president of the OSCE, Jerry Grafstein of Canada, and 
representatives of the Greek chair in office, and 
representatives of the future Kazakh chair in office, and 
Ambassador Jonas Hafstrom on behalf of the Swedish presidency 
of the European Union.
    Sessions for this seminar included notable panelists, such 
as Paul Fritch of the OSCE Secretariat, an exciting 
presentation this morning by Dalia Mogahed of the Gallup Center 
for Muslim Studies, Barry Pavel of the National Security 
Council, and a thought-provoking professor, Dr. Ian Lesser, of 
the German Marshall Fund. Our discussions with these panelists 
centered on OSCE Mediterranean Partner participation 
mechanisms, security in the Mediterranean, youth empowerment 
and challenges of the OSCE region, respectively.
    I'm going to ask unanimous consent that the rest of my 
statement be made a part of the record in the interest of time 
and because so many of my colleagues are here. But we are 
joined by distinguished witnesses who will help us to 
synthesize the topics discussed throughout our seminar as well 
as share their vision for future or empowerment of the OSCE 
Mediterranean Partners.
    I'll identify our panelists after I hear from colleagues 
and I'd like now to ask the chair of the CSCE, my good friend 
from the U.S. Senate, Senator Cardin, if he would make opening 
remarks.

                HON. BENJAMIN CARDIN, CHAIRMAN, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Cardin. Well, to Congressman Hastings: First let me 
thank you for arranging the Mediterranean Partners meeting here 
in Washington. It was an extremely important opportunity for 
our partners to get together and exchange their views. I also 
want to thank you for chairing today's hearing as wein the U.S. 
Helsinki Commission look at the Mediterranean Partners and ways 
in which we can enhance our effectiveness within OSCE.
    Let me apologize from the beginning that the Senate Foreign 
Relations Committee will be meeting shortly with the prime 
minister of Iraq so I'm going to have to excuse myself to 
attend that meeting. But engagement with our colleagues 
representing the OSCE Mediterranean Partner countries has been 
a particular focus of the OSCE parliamentary assembly for many 
years as evidenced by the work of its successive special 
representatives on Mediterranean affairs and the assembly's 
annual Mediterranean seminars, which are a critical part of the 
agenda of the assembly's fall meetings.
    We and our Mediterranean Partners have paid particular 
attention to the issues of security and economic cooperation. 
In 2002, the parliamentary assembly convened its first 
conference dedicated to ensuring peace, democracy and 
prosperity in the Mediterranean region. Since 1993, security, 
trade and economic cooperation have been the subjects of debate 
during the assembly's annual sessions and have been addressed 
in the final declarations of those meetings.
    Most recently, the Vilnius Declaration ratified at the 
conclusion of the parliamentary assembly's annual meeting this 
month in Lithuania includes a resolution on Mediterranean free 
trade authored by our good friend Senator Jerry Grafstein of 
Canada. This resolution calls for the creation of the 
Mediterranean Economic Commission with the mandate to reduce 
trade barriers and facilitate the transition to a knowledge-
based economy in the countries of the region. It also 
recommends the creation of a Mediterranean agricultural 
marketing board with the aim of creating jobs in the 
agriculture sector for young people, which could be a valuable 
part of the security in that region.
    During my service as chair of the parliamentary assembly's 
committee on economic affairs, science, technology and 
environment, the committee also focused on trade and economic 
cooperation in the Mediterranean region. As many of you may 
recall, during the 2005 annual session of the parliamentary 
assembly in Washington, D.C., our committee hosted a panel 
discussion on developing trade and economic cooperation with 
our Mediterranean partners, which featured an address by the 
ambassador of Morocco to the United States. The Washington 
declaration adopted at the conclusion of the 2005 annual 
session contained a resolution addressing both soft and hard 
threats to security, enhancing economic cooperation, dealing 
with the challenges of migration and promoting tolerance in the 
Mediterranean region.
    So as you can see, within the OSCE and within the OSCE 
parliamentary assembly, we've made significant progress in 
advancing the interests of our Mediterranean partners within 
the context of the commitments within OSCE. What I have urged 
is taking a look at how we can further that process.
    It's interesting, Mr. Chairman, that the commission held a 
hearing in 1993, the U.S. Helsinki Commission. At that time, we 
looked at creating an OSCME, an Organization for Security and 
Cooperation in the Middle East because we thought that the 
Helsinki process was so valuable that the direct adoption of 
that process by the countries within the Middle East could have 
direct benefit as it had within Europe.
    So we suggested that. I do recall we heard from, Abba Eban, 
the former foreign affairs minister of Israel. We also heard 
from the distinguished ambassador from Egypt, Ahmed Maher, el-
Sahad, at that time, both favorable towards the concept. I have 
since travelled to the region many times and have talked to the 
leaders of the countries in the region. They all think that 
this makes great sense so--and I think we have one or two 
options that I really do encourage the witnesses today to 
comment on this.
    We could try to strengthen the role of the Mediterranean 
Partners in the countries within the region within the OSCE 
framework. We could look at a separate framework, which 
incorporates similar ideas although there's no cookie-cutter 
approach. I know we have to tailor it towards specific needs of 
the region. But I do think, looking at the historic problems in 
the Mediterranean and in the Middle East, that using the 
experience since 1975 with what we've been able to do in CSCE 
gives us hope that we could make further advancements in this 
area. And I look forward to the witnesses today and I hope that 
we'll be able to continue to make progress in promoting peace, 
security and economic well-being within the Mediterranean area.
    Mr. Hastings. Thank you very much, Senator. I'd also like 
to recognize the secretary general of the parliamentary 
assembly of OSCE, Spencer Oliver, who has joined us as well. I 
now turn to Congressman McIntyre for any statement you may wish 
to make, Mike.

               HON. MIKE MCINTYRE, COMMISSIONER, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. McIntyre. Thank you, Mr. Chairman. I'll simply say, in 
the interest of time, we do welcome our friends who have joined 
us. We especially appreciate your leadership, Mr. Chairman, in 
working with our Mediterranean partners. I know a couple of 
years ago it was my pleasure when we were in Vienna together to 
go to a special reception for our Mediterranean partners and 
how pleased we are to see these types of relationships growing 
and continuing and being enhanced. And we're so glad to have 
you as well as others who are here from the OSCE to join us 
here in our nation's capital. Thank you.
    Mr. Hastings. Just like the partner states participate in 
the OSCE, our CSCE has by now designated an auxiliary group but 
a very active member of the American delegation when we attend 
the fore of the parliamentary assembly is Gwen Moore from 
Wisconsin, my colleague. Gwen.

    HON. GWEN MOORE, A MEMBER OF CONGRESS FROM THE STATE OF 
                           WISCONSIN

    Ms. Moore. Thank you so much. I am so grateful that we have 
this opportunity to meet with our Mediterranean partners. I 
think that the urgency of developing these dialogues among 
parliamentarians and at NATO, the European Union and OSCE is 
really trumped by the patience that our past presidents and 
others have shown and our partners have shown in coming to the 
United States. We welcome you here and I am anxious to hear the 
testimony of our panels.
    Mr. Hastings. Thank you very much, our congresswoman. We'll 
hold just one minute for Commissioner Darrell Issa if he has 
any statement that he may wish to make. Come over here, 
Darrell.

               HON. DARRELL ISSA, COMMISSIONER, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Issa. Chairman, I waive any opening statement 
considering my arrival.
    Mr. Hastings. All right. Thank you so much, Congressman--
that allows us to get to the first panel. And we are joined by 
Ambassador William Hudson, the acting deputy assistant 
secretary for Near Eastern Affairs of the U.S. Department of 
State. Ambassador Hudson has extensive experience in the region 
as a senior career Foreign Service officer and recently, 
ambassador of the United States to Tunisia where I had the good 
fortune of visiting Tunisia when he was ambassador and was 
hosted extremely well by he and the extraordinarily capable 
staff at the United States Embassy. The ambassador's curriculum 
vitae is outside. I won't go into all the details. And so 
ambassador, you have the floor.

  WILLIAM HUDSON, DEPUTY ASSISTANT SECRETARY FOR NEAR EASTERN 
               AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Hudson. Thank you very much. Distinguished chairman, 
members of the commission, I want to thank you for calling this 
important hearing and for providing us an opportunity to 
participate in this exchange on engagement of the Organization 
for Security and Cooperation in Europe with our Mediterranean 
partners. I also welcome the interest of our partners in 
participating in this forum with members of the United States 
Congress on an issue that is vital to many of our shared 
interests.
    The OSCE's special relationship with the six Mediterranean 
Partners for Cooperation goes back to the start of the Helsinki 
process. In 1975, the Helsinki final act included a 
Mediterranean chapter emphasizing the close links between the 
security of Europe and the security in the Mediterranean 
region. This security link has been underscored in subsequent 
OSCE documents such as the 1999 charter for European security 
and the 2003 strategy to address threats to security and 
stability in the 21st century. The OSCE participating states 
have committed themselves to exploring new avenues of 
cooperation and interaction as well as to explaining the scope 
of broad exchanges on OSCE norms, principles and commitments.
    Through ongoing dialogue and joint activities with the 
Mediterranean partners, the OSCE has successfully shared its 
unique, comprehensive, three-dimensional approach to security 
with the Mediterranean partners on a number of topics including 
confidence and security-building measures, OSCE as a platform 
for dialogue in fostering norms of behavior, the 21st-century 
threats to security and state stability, protecting human 
rights and fundamental freedoms as well as linkages between the 
environment and security, media and new technologies and 
migration and integration policies.
    The annual OSCE Mediterranean conferences, which are 
usually hosted by the partner state, provide the opportunity to 
exchange views and contribute to further developing the 
relationship between the OSCE and the Mediterranean partners. 
The conferences are also attended by international 
organizations, parliamentarians, academics and importantly, 
NGOs, leading to a unique cross-fertilization of ideas and 
recommendations.
    In fact, a number of very interesting recommendations came 
out of the 2008 conference in Amman, Jordan, including 
suggestions to promote closer involvement of civil society in 
counterterrorism efforts to address climate change and 
desertification through regional cooperation and to support the 
creation of civil society networks in the Mediterranean region. 
The United States is very interested in following up on these 
and other recommendations.
    Mediterranean partners have many opportunities to get 
involved in the work of the OSCE. In addition to attending and 
participating in a wide range of OSCE meetings and conferences, 
they are also invited to send observers to electoral missions 
of the Office for Democratic Institutions and Human Rights, who 
have received training in Warsaw to that end. Thanks to the 
OSCE's partnership fund, we now have increased opportunities 
for conducting joint projects. The United States already has 
used this fund to support two projects and hopes to be able to 
contribute to it more in the future.
    We are particularly encouraged by a lively discussion at 
the June 2009 workshop conducted in Vienna on the topic of 
media. This workshop, which was based on a suggestion made by 
Egypt, brought together more than 35 experts from the OSCE and 
the Mediterranean regions to discuss challenges and best 
practices in setting up and promoting mechanisms to encourage 
free speech. Such exchanges provide us with an opportunity to 
learn and work together to foster security and stability in our 
countries.
    The United States is interested in increasing cooperation 
with the Mediterranean partners in all three OSCE dimensions 
and in hearing Mediterranean perspectives on broader issues as 
well. We sincerely look forward to engaging with our partners 
on issues such as their approach to the reintegration of Iraq 
into the community of nations and to ways to resolve tensions 
over oil and gas supply and demand issues in Eastern Europe.
    The Mediterranean Partner countries are at the crossroads 
of Europe, Africa and the Middle East. Their historical and 
existing ties with other regions have distinctively positioned 
them to play a key role on issues ranging from regional 
conflicts such as Chad and Sudan to Middle East peace, 
migration, terrorism and more. The Mediterranean Partners have 
played a positive role in both the regional and the world arena 
and have the potential to make an even greater contribution. We 
believe the onset of a new U.S. administration offers a new 
chance to engage in the OSCE partnership and to intensify and 
reinforce our relationships in this critical area.
    The Obama administration has shown its willingness to 
listen and to think critically about the United States foreign 
policy priorities and objectives. In President Obama's June 4th 
speech in Cairo, he said that he had come to seek a new 
beginning between the United States and Muslims around the 
world, one based on mutual interest and mutual respect. We have 
seen a promising start to the new administration's engagement 
with the Mediterranean. Secretary Clinton met with the foreign 
ministers of Algeria, Morocco, Tunisia on the margins of the 
Gaza Reconstruction Conference in Sharm El-Sheikh in March.
    She used that opportunity to discuss regional cooperation 
and other concerns of mutual interest. Special envoy for Middle 
East peace, Senator Mitchell, subsequently visited the region 
to solicit their ideas and support for peace. We continue to 
look for opportunities to engage our North African partners 
bilaterally and regionally on a wide range of issues, including 
migration, terrorism economic cooperation and regional 
security.
    In doing this, we are committed to working with the OSCE 
via the Mediterranean Partners as well as other multilateral 
fora arrangements, to ensure that our efforts with the 
countries of the region are consistent and mutually 
reinforcing. The OSCE participating states and the 
Mediterranean Partners should work together productively to 
confront the challenges at hand, and promote security, 
stability, and individual freedoms throughout the region and 
throughout the world.
    Thank you for the opportunity to testify today and I'm 
happy to take any questions that you may have.
    Mr. Hastings. I'll turn the questioning now to Chairman 
Cardin.
    Mr. Cardin. I thank you for that courtesy. Let me if I 
might, secretary, just cover a couple points. The OSCE, has had 
an incredible amount of success considering it's a consensus 
body, depends upon voluntary compliance, basically, yet has 
rather strong commitments as far as human rights, security and 
economic and environmental commitments.
    When we take a look at what it's been able to accomplish in 
avoiding conflicts through its missions; when we look at the 
technical assistance that's made available to member states 
whether it deals with migration or it deals with border 
security--and the list goes on and on and on--when you take a 
look at the progress that it has made on basic freedoms 
including journalism and making sure that we put a spotlight 
where countries are not doing, what they should be doing and 
now taking on the issues of the Internet and what we need to do 
about Internet freedom of expression.
    And then you take a look at some of the initiatives of the 
United States commission on trafficking in persons and anti-
Semitism and anti-Muslim activities and the fact that we can 
bring consensus among all states to an action plan in these 
areas where I think it initially people thought that would not 
be possible.
    I mention that all because I really do believe this model 
can work in the Mediterranean and the Middle East. And I guess 
my question to you--it seems to me the Mediterranean partners 
have been a very valuable addition to the proud record of the 
OSCE. But we should perhaps look at either expanding that model 
or a separate model for the Middle East particularly.
    One option could be to strengthen the roles of our partners 
in the OSCE itself. Give them a stronger voice within the OSCE. 
Another suggestion could be to expand the number of country 
states that are partners within the OSCE. I have personally 
thought that Pakistan--partner in Asia acknowledged--it would 
be nice to have them in our organization particularly since we 
do have Afghanistan currently as a partner.
    Or we could look at a separate organization using the OSCE 
as a model but that takes time in order to go through all the 
diplomatic hurdles in order to achieve a different 
organization. So I would just like to get your view as to how 
you see the future from the point of view of either 
strengthening the OSCE--looking at separate organizations or do 
you think that the dynamics in the Middle East are such that it 
would be difficult to have a consensus organization with the 
type of record that we've seen within OSCE?
    Mr. Hudson. Thank you for that question. The OSCE is a very 
interesting organization because as it brings together the 
Israelis with the Jordanians and the countries of the Maghreb, 
they go to meetings together. They have an opportunity to see 
each other face to face. It's a very positive forum for doing 
that kind of thing.
    Anything we can do to push forward on dialogue and 
participation in that regard would be a good thing. And this is 
a personal view, and I can give you a more official answer, if 
you like--but my own view is a consensus, an organization that 
works on consensus, would find some of the problems in the 
Middle East, particularly issues on the peace process 
challenging and problematic to deal with.
    Mr. Cardin. I just want to point out, I'll never forget the 
discussion I had with former Prime Minister Rabin in Jerusalem 
on this subject. And I sort of said the same thing to him. I 
said, how would you like to be a member of an organization 
where there are numerous Arab states and Israel? And he said he 
welcomed that.
    He says if we have a chance to talk, if we can sit at the 
same table together and better understand each other and if we 
can make progress on economic issues and if we can make 
progress on basic rights and bringing down trade barriers and 
making that type of progress--and if our people can get to know 
each other better, the rest will come.
    I don't think anyone expects that this process will produce 
the peace between the Palestinians and the Israelis. That's 
going to happen, we hope, as a result of direct negotiations 
with significant international interest. We understand that. 
But as far as an ongoing relationship in the Middle East, one 
day we hope we'll see peace in that region. But for prosperity 
and economics and human rights and security to really take 
hold, there's got to be some more permanency in the 
relationships.
    And that's why the former prime minister thought this made 
sense. By the way, King Hussein of Jordan felt the same way 
when I met with him. So I know there are new leaders but they 
seem to be saying the same thing. And I just wonder if the 
United States should be more actively involved on parallel 
tracks, not the substitute the peace initiative, not to 
substitute the initiatives that are currently underway. But on 
a parallel track to try to figure out how we can really get 
more direct communications on basic OSCE principles among the 
countries in the region.
    Mr. Hudson. Thank you for that. As you know, President 
Obama has emphasized our willingness to have dialogue with 
mutual respect among all of our friends and allies overseas. I 
think our position should be that we would encourage any kind 
of regional organization that can bring Israelis together with 
their Arab neighbors for discussion and addressing mutual 
problems that all those countries have.
    Mr. Cardin. I'll just make one last point on this. It was 
pointed out yesterday by Mr. Lennmarker about the historic 
problems within Europe as to why the OSCE came about, because 
of the conflicts within that continent being unparalleled in 
the history of the world.
    The differences among the Arab states in the Middle East 
are dramatic. It's not just Israel versus the Arab states; 
there are historic conflicts among our partner countries that I 
would think the pattern of OSCE and the progress that was made 
in OSCE contributing to the overall stability in Europe could 
be extremely helpful in leading us to a much more stable Middle 
East.
    I would just encourage the United States and all of our 
member countries to look at what has happened since 1975 in 
Europe and use that as an example of what we can achieve 
particularly in the Middle East. Thank you, Mr. Chairman.
    Mr. Hastings. Thank you very much, Chairman Cardin. I'd 
like to take cognizance of the fact we've got a round of 
questions for everybody but we've been joined by our 
commissioner Robert Aderholt who was just elected as the vice 
chair of one of the committees of the parliamentary assembly, 
and I'm very pleased that that occurred.
    Ambassador Hudson, you mentioned a partnership fund, OSCE 
partnership fund, and you cited to the fact that the United 
States has already accessed our two projects. I'm interested in 
two things--what are those projects and what do we intend, in 
the United States to do, to ensure that we are plus up the 
partnership fund?
    Mr. Hudson. Thank you. The two projects involved bringing 
people from Mediterranean Partner countries up to Warsaw for 
training on human rights issues. And we consider the 
partnership fund to be a very positive development. It allows 
us to, as I said, to develop projects where we can bring some 
of the Mediterranean Partner countries, individuals in those 
countries, up to important seminars, important training 
sessions. So we're very supportive of this.
    I can take the question sir if you'd like on what our 
future funding would be and get back to you.
    Mr. Hastings. All right. If you would then, I'll have one 
other question in this round. As I indicated to you we've 
concluded two days of seminars with a robust delegations from 
our partner states. The continuing theme or consistent theme 
that arose was the difficulty of negotiating the multiple 
dialogues led by different actors in the region and principally 
the OSCE and the European Union and NATO. My question would be 
what roles do you think for our Mediterranean dimensions of 
these various entities should play to encourage synergy among 
their various activities.
    As I listened over the course of the last two days, 
ambassador, I can't help but agree with all of the sentiment 
that was expressed most sincerely by virtually each delegation 
that it is very hard to keep up with who's on first and what's 
on second. They didn't put it that way, but I'm just putting in 
the plain old vernacular.
    And in addition to that, if we start with the Barcelona 
process and go all the way through, every--and it was put 
bluntly by one delegation--every time we come up with a new 
institution or a new program we never seem to complete that 
before we start a new institution or program. So implementing 
plans--I kept referencing Sarkozy. But implementing a plan and 
trying to keep up with the dialogue and the different 
organizations. What's your take on that?
    Mr. Hudson. Well, I sympathize with the delegations who 
express their concerns to you because when I was ambassador in 
Tunisia, we had the Barcelona process, we had the neighbors 
process, we had the OSCE process. So I can understand their 
confusion and they have different delegations coming to them 
all the time with--but these delegations are involved in 
different kinds of processes all sort of hitting the same basic 
issues of political military environment and the economy and 
human development.
    So all these organizations sort of have the same focus. It 
would be nice to find a way--I don't personally have an idea of 
how this could be--but you've hit on a very important 
coordinating problem that we have in that region that needs to 
be addressed in some way.
    Mr. Hastings. Well, one thing that I'll just float that my 
luncheon guests were discussing was the possibility of having a 
first among equals type structure that would have say two 
members from the European Union, two from OSCE, two from NATO 
and two from each of the member states to assist as 
transmitters and receivers for coordination and collaboration.
    Otherwise, clearly what winds up is a lot of duplication 
and at some point we reach diminishing returns because our 
partner states lose interest because they can't quite keep up 
with who it is that they're dealing with. I won't belabor it 
because we have so many of my other colleagues that I would 
hope would go forward. I'm just taking them in the order that 
they came, and Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman, and thank you again 
for this time today. When we think about the Helsinki 
Commission's recent seminar that we had parliamentarians and 
dignitaries from throughout the OSCE Mediterranean Partners, 
one consistent thing that was raised was a difficulty of 
negotiating the multiple dialogues led by different actors. 
When we look at the European Union, we look at NATO and of 
course OSCE, what do you think the Mediterranean dimensions of 
these various entities should play to encourage the synergy 
among these various activities?
    Mr. Hudson. Well, that gets at the issue that Congressman 
Hastings brought up which is sort of a fatigue in some of these 
Mediterranean Partner countries because they have so many 
people coming to them all the time. They'll have a NATO 
delegation, they'll have a Barcelona process delegation, they 
have an EU component--how that is coordinated--it's an 
important issue which I think has to be addressed by the 
international community and particularly by the member states 
in the OSCE and the member states of NATO and the EU.
    I don't have a good resolution on that but I would say we 
would encourage, our policy would be to encourage the dialogue 
in that regard so that we could coordinate all these efforts in 
that region so that they would all be more effective.
    Mr. Cardin. All right. Thank you, thank you, Mr. Chairman.
    Ms. Moore. Thank you, Mr. Chairman, and thank you 
ambassador for your sage testimony. Not to be redundant--I was 
wondering, you mentioned a great many important issues that are 
of interest to the United States and certainly to the OSCE: the 
re-entry of Iraq into the community of nations; the 
apportionment and availability of oil and gas; Gaza 
reconstruction--certainly you mentioned that the Mediterranean 
Partners were at the crossroads of the world.
    I am wondering, in view of the fatigue that you just 
mentioned of all this interaction with the European Union and 
NATO, do you have any specific recommendations for OSCE in sort 
of drilling down on any been focusing in or honing in on one of 
these issues that we could be particularly helpful with?
    Mr. Hudson. Thank you. I don't have an answer for you 
today, but I would like to take this issue back to the 
Department of State because it is clearly very important and to 
give you an answer about a strategy that we might follow to 
address this important issue.
    Mr. Issa. Thank you, Mr. Chairman. Ambassador, you are 
either very fortunate or you've managed to simply end up in 
what has historically been the hot seat. The deputy assistant 
secretaries for Near East inevitably have a war or some 
humanitarian crisis during their tenure, no matter how long or 
short. Congratulations, you haven't had one yet.
    But to that end, and Congresswoman Moore said it pretty 
well when she talked about Gaza reconstruction, there are some 
residual effects that are on your watch: the landmine issues, 
the cluster bomb issues in Lebanon, the lingering effects of 
the takeover by Hamas of Gaza and the inability to reengage on 
some peer-to-peer level between the Palestinians and the 
Israelis.
    This organization is dedicated to human rights; it's 
dedicated to democracies that represent their people. We 
function under the rule of law and for their people. So it's a 
particular frustration when I look throughout North Africa and 
around the Levant that there's more work to do there than in 
the countries that we presently are engaged with.
    Your point was very good and you're absolutely right. 
Normally we can't even bring the Israelis and the Palestinians 
together because one insists on being a nation and then insists 
that the other not be present.
    Two, we have the obvious challenge that if there were 
consensus possible; A, they wouldn't need us; and, B, it 
wouldn't be where we always are putting so much of our energy. 
But having said that, how can this organization bring these 
disparate groups on a consistent basis into a relationship 
where they can see how the rest of our system works and be not 
studied by us from the outside, even though they can't be full 
members on the inside at the present time. What would you 
suggest that we begin exploring if we're going to work with you 
as partners?
    Mr. Hudson. We have a real opportunity now with the 
partnership fund and what we need, in my view is--we have a 
mechanism which brings together the Israelis and their near 
neighbors, Jordan, other Arab states as I'm sure you're aware--
Tunisia has always been very active in the peace process as has 
Morocco.
    Mr. Issa. I'm not sure I would be as diplomatic as you. 
They've always insisted on having a role, a seat at the table 
and particular cuts of the pie, but please.
    Mr. Hudson. The OSCE presents a mechanism that's already 
there to bring these countries together to discuss issues of 
mutual concern and interest. That is where the real value added 
is--instead of talking about very, very difficult issues that 
we confront in the Middle East peace process, this organization 
can start talking about the environment and the economy. There 
are lots of interesting issues there and issues where all the 
Mediterranean Partner countries have similar interests and 
concerns.
    So you can start discussions at that level and that often 
can lead to something else when countries suddenly realize that 
they can cooperate on a certain level of issues that sometimes 
encourages cooperation above. So we would encourage the 
bringing these people into a process and through the 
partnership fund we'll be able to do more and more of that. 
That's our hope.
    Mr. Issa. And you mentioned Morocco particularly. Morocco, 
as I'm sure you're more aware than I, really has the mandate 
for Jerusalem. Well, Jordan has both historic occupation and a 
constant interest including of course in the Palestinians. Is 
there a role we could play to bring them together from a 
standpoint of a deteriorating situation both for tourism and 
for pilgrims in the more less tourism, true pilgrim sense, to 
the holy lands? Is that something that you think this group 
could use as a bridge before we could take the next steps and 
the next steps that we usually go to Sharm and talk about?
    Mr. Hudson. Well, thank you for that. I don't have an 
answer for you on that today but I'd be happy to take that 
question and come back to you with something on that. I will 
tell you that Senator Mitchell has been very active with the 
Moroccans as he begins his peace process activities. 
Historically the Moroccans have been very helpful in this 
regard.
    Mr. Issa. One last question. When you make your follow-up, 
if you could give us, if you will, the best way--and I know 
Senator Mitchell is doing a good job with shuttle diplomacy, 
and that's usually how it works. You go to Morocco, you go to 
Israel, you go back to Morocco and so on. Is there a better 
dynamic to bring the parties together in some sort of a forum 
that we could potentially facilitate some direct dialogue, 
perhaps even with our special envoy.
    Well, he's on my list of czars: high title, questionable 
portfolio, but lots of backing from the president. But is there 
a format that you think we could--when you follow up with the 
answer--kind of give it to us because this is an organization 
that has the staffing and the wherewithal to potentially go 
anywhere in Europe, the Mediterranean and put together 
something which might bring parties together that up until now 
will only come together at a summit, and as you know all too 
well, summits are only after you've agreed to something that 
isn't probably going to accomplish anything but you've agreed 
to it so you'll sign it.
    And the hope is we'd get people together for the dialogue 
you spoke of. Thank you, Mr. Chairman.
    Mr. Hastings. Thank you very much.

              HON. ROBERT ADERHOLT, COMMISSIONER, 
        COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    Mr. Aderholt. Thank you, sir. I don't have anything right 
now.
    Mr. Hastings. Thank you very much, Mr. Aderholt. 
Ambassador, I genuinely appreciate your time and the State 
Department participating with us. I am sure you took notes, but 
I will make it a point to as our staff to see to it that you do 
have the follow up questions. One of the things that we like to 
do is to post on our Web site the particulars of hearings and 
briefings that we've had.
    So the follow up is important to us and we thank you so 
very much, and as always it's good to see you.
    We can now ask our second panel if they would join us. 
Professor Sotiris Roussos of the University of Peloponnese in 
Corinth, Greece. Professor Roussos and I share a similar 
mandate in his role as personal representative to the Greek 
chair in office of the OSCE for Mediterranean partners. And we 
are also going to be joined on our second panel by my good 
friend, the honorable Joao Soares, the president of the OSCE 
parliamentary assembly who is the former mayor of one of my 
favorite cities, Lisbon, the capital of Portugal.
    Since we call you up first, professor, we'll begin with 
you.

   SOTIRIS ROUSSOS, PERSONAL REPRESENTATIVE ON MEDITERRANEAN 
                     PARTNER AFFAIRS, OSCE

    Mr. Roussos. Thank you very much. It is great honor and 
pleasure to attend and witness to this hearing of the 
Commission on Security and Cooperation in Europe and to share 
views on how we can work together in order to make the 
Mediterranean Partnership of the OSCE even more effective by 
enhancing its potentials and fostering the ties between the 
organization and our common Mediterranean neighborhood.
    In this regard, Greece as an OSCE participating state of 
the Mediterranean attaches great importance to the 
strengthening of relations with our Mediterranean partners and 
to the promotion of their engagement with the OSCE activities 
and mechanisms.
    My appointment is underlining the strong will of the Greek 
chairmanship to further upgrade these ties as it emerges the 
strategic importance of the region for the Euro-Atlantic 
security. I would like last to share some reflections and to 
present some ideas to be thought upon by the partners honoring 
on our contribution on the triptych of synergy, symmetry and 
strategy.
    Our times are marked by the most profound technical 
revolution in global communications which transcends national 
cultural boundaries. International partners of mass consumption 
with global brand names have become symbolic. Market-oriented 
reforms and improvements in the business and investment climate 
are facilitating these changes all through the past decade.
    In the Mediterranean, the role of the market forces in the 
private sector of the economy is expanding although sometimes 
it seems not so much. Governments are privatizing state-owned 
corporations and the banking, telecommunications and utilities 
sections. Trade systems are opening and restrictions on foreign 
exchange transactions are being eased.
    Moreover, in response to these changes, development 
indicators are beginning to improve, especially in the past 
decade: Extreme poverty, people living on less than $1 per day 
fell by 20 percent by 2000 and 2004. Over the past 15 years, 
life expectancy has increased in the region from 60 to 70 
years, while the total fertility rate has fallen by 1.8 births 
per woman, the largest decline of any region in the world.
    Nearly 90 percent of children completed primary education 
in 2005, up from 77 percent in 1990. About 90 percent of the 
population now has access to electricity and improved water 
resources.
    Additionally, the enormous explosion in tourism, travel, 
commerce, international media and the translation publishing 
industries arrive at impressive cross-cultural transactions and 
nexuses. Side by side with this cultural globalization we have 
the most xenophobic and, in total, manifestations of narrow-
minded nationalists and religious revivals.
    According to a study by the joint project of the Dubai 
School of Government at the Wilson Center for Development at 
Brookings, although there was an economic revival between 2002 
and 2008, however there were also other results. The same study 
points out that the situation seems more complicated since 
education is not a guarantee against unemployment in the Middle 
East.
    In fact, unemployed rates in some countries are higher 
among those youth with relatively high levels of educational 
attainment. In Egypt, for example, the unemployment of 
university graduates reaches 25 percent whereas amongst 
illiterates and those of intermediate education is five and 10 
percent respectively.
    The same more or less tendencies can be traced in Jordan 
and Lebanon. Furthermore, employment prospects for youth in 
urban areas remain particularly bleak; nearly 76 percent of 
unemployed Moroccan youth live in urban areas.
    Urban unemployment nearly doubled between 1982 and 2000, 
rising from 12 to 22 percent. About 60 to 70 percent of the 
youth in Egypt, Jordan and elsewhere thought this is a bad 
time, a bad period, for seeking a job in the Mediterranean and 
perhaps this is the beginning of thinking of migration as a 
serious alternative.
    In both banks of the Mediterranean--not only the south, 
also in the north bank of the Mediterranean, in our countries--
much higher education produces instead of conditions of 
prosperity, a proletarized, impoverished intelligentsia 
deprived and resentful, directing its resentment against the 
elites as well as the other--in the face of the migrant, of the 
different which as seen as the agent of invasion, cultural and 
economic.
    But the most startling effect of mass education is the 
collapse of earlier hierarchical notions of religious authority 
based on claims to demonstrate of fixed bodies of religious 
texts, even in countries with state-appointed religious 
authorities.
    The erosion of traditional religious authorities allows a 
wider debate on religion and science, democracy, modernity, 
gender, religious and ideological tolerance. The same absence 
of authority gives, however, the opportunity to radical and 
terrorist networks--personalities and institutions to hijack 
religious discourse and fastly undertake the role of champion 
of the true believers around the world.
    Mediterranean societies have been saved through a large 
extent by a complex cultural and social texture created by the 
combination of elements of modernity and tradition. Moreover, 
identities in the Mediterranean have been and are still being 
saved through the construction of separate bodies of knowledge. 
And intercultural dialogue should be brave enough to discuss 
recent changes in the makeup, activity and the strategy of 
religious movements in Islam.
    It's attack the role of migration communities in shaping an 
intercultural dialogue in the Mediterranean and all over the 
world. Such a dialogue should cope with a new process of 
pluralism and multiculturalism emerging in the great seats of 
Europe and through the explore of dynamic interaction between 
conflict and coexistence in multicultural cities in the 
Mediterranean and Europe.
    There is a great importance in the role of press and mass 
media in supporting neutral understanding, the role of non-
state actors in shaping ideological visions that affect state 
policies in the regions. The media have a serious impact of how 
ethnic national identities and social parties influence 
regional cooperation in the Mediterranean.
    Moreover, the means of information technology and wired 
society combined with mass education are capable of involving 
Mediterranean people in the discourse and debate about the role 
of the state and non-state actors and thus create an 
institutional and legal perquisites for the development of the 
open and interacting Mediterranean civil society.
    The role of gender in the development of such a civil 
society and intercultural dialogue is indispensable, especially 
the role of women as primary socializer for youth and children 
and the importance of women participation in activism in all 
walks of life.
    Women empowerment can not only increase households' income 
but they can become a remedy for social dislocation and the 
most useful tool for equitable growth and social cohesion. It 
should not and could not however come as an imported recipe 
from other parts of the world but it should be homegrown, based 
on genuine social forces and the rich cultural tradition of the 
area.
    Last but not least, the Arab-Israeli conflict and 
especially the Israeli-Palestinian tract influences 
Mediterranean participation of the OSCE a great deal. Of course 
OSCE framework could not solve these issues but it could 
exploit the momentum given by the U.S. leadership initiatives 
in order to expand the model of Helsinki, to expand the culture 
of dialogue, tolerance, comprehension and human rights despite 
essential political differences.
    At this particular moment, expanding membership of OSCE 
Mediterranean Partnership, especially the case of the 
Palestinian Authority is not simply to add new countries, but 
to expand a paradigm of confidence building and conflict 
resolution. Now it is more necessary than ever.
    Summarizing through all recent discussions and papers, we 
can discern three main principles: flexibility, visibility, 
tangible results. Flexibility--it is beyond any doubt that 
flexibility is increasing effectiveness, overcoming 
sensitivities and various practical obstacles. It has been a 
well-taken point in both the Egyptian and the Moroccan paper 
that we can concentrate on fewer items. Greece and personally 
the foreign minister Ms. Bakoyannis has worked very effectively 
on women empowerment through local and regional 
entrepreneurship in the Mediterranean and the Middle East, an 
issue that combines human dimension and economy.
    Visibility--it is important to increase the visibility of 
the OSCE Mediterranean partnership in the societies of the 
partners. We also believe that a young leaders forum would also 
provide the partnership with prominent young people in all 
walks of life. The first joint seminar of young diplomats from 
OSCE Mediterranean partners organized by Greece last year is a 
case in point.
    Tangible results--concentration on certain issues and 
cross-dimensional items can produce recommendation and results, 
which might lead to micro-projects funded partly by the fund 
and partly by the Mediterranean governments aiming to promoting 
the finds of the conference of the Mediterranean societies and 
of the OSCE Mediterranean partnership.
    Last, I'd like to share a personal reflection. Our 
Mediterranean basing can provide us with materials of dual use. 
We can use them to erect walls of division but with the same 
materials, build bridges of understanding. We all opt for the 
latter. Thank you very much.
    Mr. Hastings. Thank you very much, professor. I now have 
the distinct honor of asking my very good friend, the president 
of the parliamentary assembly to give us his reflections, which 
I'm sure will be inspired by the two days of activities such 
that with his capabilities he probably will summarize for us 
all what we have done. Joao.

      JOAO SOARES, PRESIDENT, OSCE PARLIAMENTARY ASSEMBLY

    Mr. Soares. Thank you, dear chairman, for this opportunity. 
My first words are to greet you, Congressman Alcee Hastings and 
Senator Ben Cardin and all your colleagues from the Helsinki 
Commission, for this initiative. This seminar that took place 
until late in the morning today from the beginning of the 
morning of yesterday was a great moment--a great political 
moment. It was very important for us to have this possibility 
of discussing with our Mediterranean partners at this eye level 
and that's an initiative that has an author and you are the 
author of this initiative. And I have, as president of the 
parliamentary assembly, to thank you very sincerely and to 
greet also our good friend and your colleague, Senator Ben 
Cardin, for the work you have done.
    That we have--as far as international relations are 
concerned--we have in our hands one of the best international 
tools that exists, if not the best: the OSCE and of course, its 
parliamentary assembly. The OSCE has proven along the 30 years 
of its lifetime that it can deal with any difficult situation 
and it has dealt in Central Asia, in the Caucasus, in the 
Balkans--everywhere from Vancouver to Vladivostok. You know it 
better than anybody because you have been a very good president 
of our parliamentary assembly like our president emeritus who 
is here--Goran Lennmarker--you already quoted.
    I strongly, personally believe that we have in our hands 
one of the best political, international instruments that has 
shown during the 30 years of existence its flexibility, its 
capacity to adapting to different situations and the capacity 
to deal with difficult challenges even in moments of war. We 
have proved it.
    And last September, when, during our Mediterranean fall 
meeting in Toronto, we had the most wide discussion that 
occurred about the Caucasuses--south Caucasuses and war between 
Georgia and Russia. And the main problem for us and you gave--
you, Helsinki Commission and you, personally, Ben Cardin and 
Alcee Hastings, gave us a great contribution to make our 
partner states from the Mediterranean believe that this is the 
good instrument to deal with the difficulties we have in our 
future. We have no other so good international institution 
including United Nations. This is the most effective.
    But of course, we have problems and you've touched them 
when you made your questions to the ambassador from the 
Department of State that was here. There are too many 
institutions trying to deal with the Mediterranean problems. 
And so, there has to be--and I agree completely with the 
suggestion you made and the suggestion that was made to us by 
our secretary general Spencer Oliver--there has to be 
coordination.
    And you, as a very dynamic special representative of the 
parliamentary assembly for the Mediterranean and the nice work 
that we have done here thanks to you here in Washington, you 
are in the best position to reach this coordination between all 
these institutions--NATO, Mediterranean parliamentary 
assemblies, all the other institutions that deal with the 
Mediterranean--without going so far as we go overseas and as we 
can go because we have proved it.
    We have just proved it here in Washington but we have 
proved anywhere else. And it's very good that our Moroccan 
colleagues that were in now a seminar proposed to have in 
Morocco one seminar, an international conference on the 
framework of the OSCE and the OSCE parliamentary assembly about 
the water, which is one of the main problems. And I'm very glad 
because we have here and since a long time ago, we hadn't the 
opportunity of having Israeli parliamentarians, Egyptian 
parliamentarians, Jordanian parliamentarians and some other 
Arabic countries' parliamentarians discussing in a civilized 
manner with each other about the difficulties of the deals and 
the challenges that we have in the future.
    And that--for me, it's very important. I agree completely 
with the quotation that our good colleague and friend Ben 
Cardin made of ex-Prime Minister Rabin. We should have, in the 
OSCE and in the framework of the parliamentary assembly, the 
representatives of the Palestinian Authority for the reasons 
that Rabin gave to Ben Cardin when they talked in Jerusalem 
about Israel entering the OSCE and entering the parliamentary 
assembly.
    We have a big opportunity as our Greek friend said to us, 
the changes that came with the new American administration and 
the new spirit that you, Ben Cardin, and especially President 
Obama represent for all of us give us hope--a great hope and a 
great expectation. I don't remember, since the last 50 years of 
my life, any time where there was so much hope concentrated in 
so few people. And I'm sure you are going to stand for this 
opportunity--that it's an opportunity for the United States and 
it's an opportunity for all of us. And of course, we have now a 
very good chairmanship.
    We have to recognize that--Dora Bakoyannis and his team of 
Greek diplomats and Greek politicians are making a great work 
and with a great dynamic. And that the last in former council 
of ministers made a new spirit and the new approach and I am 
sure that our fall meeting that will take place in Athens and 
the council of ministers that will take place in Athens until 
the end of this year will represent new possibilities in 
approaching the complete questions because I remember our 
Egyptian colleagues that were there so experienced 
parliamentarians and diplomats that were always pushing us to 
look at the concrete matters, not only to the beautiful 
resolutions.
    And I know that you are also a man of the complete, 
Congressman Alcee Hastings: my master and my friend and my 
teacher--and that's very important. That's very important--to 
be people of the complete and that one of the most important 
added values that we can bring to these difficult matters 
because there are no miracle solutions for the conflict of the 
Middle East between Israel and Palestine and between Israel and 
the Arab states.
    But there are approaches that could be done and if we 
think--and the opportunities that we've lost thanks to some 
European authorities at the time and the previous American 
administration with the Iraq war and with this terrible error 
that was committed--and if we think that all the resources that 
we spent--we together spent, unfortunately--in the decision 
taken in my home country soil unfortunately, I'm ashamed for 
it. But if these resources had been used--human and financial--
had been used in the problems in the Middle East and in the 
conflict of the Middle East, Gaza strike would not be like 
that. This would not be like that and Lebanon would not be like 
that.
    And I have a great hope and what I can assure you is that 
you can count with the experience of the parliamentarians. You 
are very well-placed to know that I have the greatest respect 
for diplomats and for other civil servants but the experience 
that we have of fighting in elections, fighting for our own 
ideas and our own ideals and being defeated sometimes and 
winning others--it's the most important added value that we can 
give. And I am sure that there is a new spirit as far as the 
Mediterranean cooperation is concerned after this Washington 
meeting and seminar. Thank you, Mr. Chairman.
    Mr. Hastings. Thank you very much, Mr. President. We'll 
turn to my colleagues if they have any questions but I'd like 
to take a moment of personal privilege. I have a constituent 
that came in the room and Alkia Lagerwal though that perhaps I 
didn't see him back there when he slid back on the wall. That's 
one of my constituents from south Florida and I'm glad to see 
you, young man. And tell your dad I said hello in case I don't 
get a chance to talk to you. Mr. Aderholt, do you have any 
questions?
    Mr. Aderholt. I would like to ask our first panelist if--
you had mentioned something that sort of piqued my interest 
there about--you were talking about the young leaders 
conference and the young leaders involvement in that. Could you 
expand on that a little bit and how that's currently going and 
what the situation is and what you foresee coming out of that?
    Mr. Roussos. Thank you very much for your question. It's a 
very critical one. To help preparing and lead, to help prepare 
leaders that can expand the cultural of the OSCE because OSCE's 
moves foremost by--it's a matter of culture of guidelines, 
culture of dialogue. So we have to help preparing a 
leadership--young leadership--that is abiding by this culture.
    And one step is the young diplomats joint seminar. It's a 
seminar by young diplomats from the OSCE Mediterranean partners 
who are coming together in Athens and in Vienna. So there is an 
environment between all these, young diplomats who are going 
to, struggle against its others perhaps in various forum to 
help understand each other and to share perhaps some common 
interests and also transplant--in a way, transfer--this shared 
interest, this shared culture to their society.
    We can actually do the same with other groups of leaders. 
We can do it with young entrepreneurs. We can do it with young 
women leaders. We have done very interesting--actually last 
year in Greece, we had a seminar on women entrepreneurship and 
we have seen a great interest by young women entrepreneurs from 
the region. So we can expand on this. And not only that--we can 
also exploit new technology because we have a big discussion 
today about the use of new technology, of telecommunications, 
of computer, of being wired. We can use these potentials in 
order to create networks. That means these people can 
communicate to each other and create networks around the 
Mediterranean.
    And also, these projects can--these fora, these groups, 
these meetings can offer tangible results. We can see the 
results. And we do not need big money for this. For example, we 
talk about this partnership fund. Partnership fund is not big 
money. I mean, it's about half a million euros or so. So this 
is not big money, for an organization of a partnership. But in 
this kind of targeted initiatives and of this kind of groups, 
we can have tangible results with not so much money. This is 
what we think about this young leaders' forum.
    Mr. Aderholt. Well, certainly it's something to be pursued 
and it's a great idea and I would encourage you to.
    Mr. Roussos. Actually, there is this idea--and again, we 
came back to this--to the coordination. For example, NATO Aspen 
Institute has such a program of young leaders. We can have a 
bigger one incorporating or coordinating the Aspen Institute, 
NATO, young leaders for the Mediterranean and the young leaders 
of the OSCE and perhaps a young leaders' forum that is going on 
in the new union for the Mediterranean. So this is one example 
but we can easily coordinate.
    Mr. Hastings. Would the gentleman yield just a moment?
    Mr. Aderholt. Sure, go ahead.
    Mr. Hastings. Earlier today, we had a presentation from the 
German Marshall Fund and they're moving in that direction as 
well in dealing with the youth. And I just add that and will 
provide you with that----
    Mr. Aderholt. Yeah, well that's encouraging to hear. And 
yeah, well, thank you, professor, for your comments on that. I 
don't have anything else. I just do want to say, again, it's a 
great honor to have the president of OSCE parliamentary 
assembly with us and thank you for your leadership and it's 
good to have you here in Washington and before our panel today. 
Thank you.
    Mr. Hastings. Ms. Moore.
    Ms. Moore. Thank you. Thank you so much, Mr. Chairman and 
thank you so much, Mr. President for the honor of having you 
here in the United States. I apologize for being out of the 
room. I'm working on being in two places at one time--been 
working on it for quite a while.
    But I was happy to hear you speak about soft security 
issues and the need to train and do training and development 
with younger people. I want to focus on something that the 
Moroccan delegation to the OSCE has circulated a vision paper 
talking about the need to engage around the issue of energy and 
water. I represent a district right on Lake Michigan and of 
course, the Great Lakes contain 20 percent of the world's fresh 
water. And Lake Michigan on which my district resides is the 
only lake that's totally and completely contained within the 
United States. And so therefore, we have industries--120 
industries--that relate to water development. We have a 
university that has an industry, an educational and academic 
system that is developed around water resources.
    The impact of climate change and the lack of water on Earth 
is going to have a greater impact on women than anyone else as 
they seek to relocate their families. And so I am wondering 
what we could do in establishing a network among these 
Mediterranean research institutions to work on a dual track, to 
work on climate change and water development but also have that 
be a way of bringing women who are going to endure the greatest 
hardship under the dearth of these resources into these 
academic opportunities.
    Mr. Roussos. It's a splendid example of having a multi-
dimensional work in the partnership. First of all, water is a 
security issue so it is by all means a security issue. It's an 
environmental issue and has to do also with the women and 
children quality of life and quality of work. Now, of course 
there were attempts in the 1990s by the Euro-Mediterranean 
partnership, by the Barcelona process, by the multilateral 
tracks to create a network of research institutes. But I think 
that this network has not been so successful, not because of 
the people because of other circumstances--mainly political.
    It is a huge opportunity now to use the partnership fund 
and I think--to this direction. And also do something else. 
And, now, I would like to come back to what our chairman said 
about small businesses and micro-banking, micro-lending and 
women in these businesses because around protection of water, 
around water management, there can be a huge development of 
micro-business, micro-lending led by women. We have seen that; 
we have seen that in Bangladesh, we have seen that with 
fisheries in Bangladesh run by women with the micro-lending by 
Grameen Bank, which is a success. So we can go on with these 
examples and we can start with the research network and perhaps 
also thinking about micro-lending.
    Of course, I have here to make a distinction, to make a 
note that OSCE is not an economic organization. It's not a 
financial organization. World Bank or other organizations can 
do this job better. But what OSCE can do is, again, to have the 
cultural infrastructure, to have the culture of dialogue of 
cooperation and this is the main contribution of the OSCE 
partnership.
    Mr. Soares. I liked so much the question you put that I 
wanted to add something. I think that we as parliamentarians 
inside the framework of the OSCE are the best place to deal 
with these kinds of issues. And I agree with you. The paper 
that our Moroccan friends came to us--I quoted it in the first 
speech I made in the opening. It was one of the best papers we 
have here and the fact that our Moroccan colleagues took the 
initiative to go to an international conference about the water 
means that there is the flexibility and the spirit of the OSCE 
and especially in the spirit of the parliamentary assembly.
    Gender problems--gender equality problems--is one of our 
main goals and our main tasks. And we have done work--I've seen 
it with my own eyes after Goran Lennmarker, after Alcee 
Hastings, I had the pleasure and the honor of being in Central 
Asia in places where there are real problems and where we are 
facing them and not only with the politically correct and the 
photo opportunity--with real work in the field. And sometimes 
without the networks.
    I was surprised in Central Asia and I spoke this morning 
about it and I simply could establish a corporation with Aga 
Khan Network because they are dealing with the same goals, with 
the same challenges and they are doing such good work in the 
model of our own work as far as the parliamentary assembly's 
concerned. And that is something that we should always 
underline in a proud matter. We have one of the best 
secretariats in the world because we have a small budget, a 
small secretariat and we make a real work from Vancouver to 
Vladivostok.
    I was very pleased, I have the opportunity to say but all 
Mediterranean partners came to the last presidential elections 
in the United States to the observing mission in a great 
number. And that means also the attraction that the United 
States has to our Mediterranean partners. But that means also, 
the quality of the work we are doing and I propose for example 
in the former ministerial council in Corfu the idea of taking 
good ideas that in other institutions have worked, like the 
ERASMUS program in the European Union or your program that came 
from the second World War of cooperation in building education 
for young people coming from other countries. But the ERASMUS 
has made more for the European Union than all the treaties and 
that is something that should be brought inside the OSCE. 
Excuse me.
    Mr. Hastings. Were you going to add one final word there, 
Gwen?
    Ms. Moore. One final word and the president really said it 
much more eloquently than I could have. And that is--and I just 
wanted to just disagree a little bit with you, Mr. Roussos, to 
say that it's really hard to disaggregate economic issues from 
humanitarian issues. And here, we're dealing with it when we 
look at the gender inequity because the status of women is like 
the canary in the coalmine.
    If you can look at the status of women and tell what is 
going on in a country--if women lack economic opportunities, if 
they are not a part of growing the economy, if there are human 
rights issues with including them, the whole economy of the 
country will suffer indeed. So women are going to be critically 
impacted by climate change and water resources. We need to get 
them involved in education and if we could get our 
Mediterranean partners to see it as an economic issue for their 
future, it would help us deal with some of the human rights and 
gender issues as well.
    Mr. Hastings. Thank you very much, all.
    Ms. Moore. Right.
    Mr. Hastings. Thank you, professor. Thank you, Mr. 
President and Ms. Moore. I'm sure that President Soares and 
President-emeritus Lennmarker and my good friend Senator 
Grafstein and Spencer Oliver, the secretary general, all 
thought that they would come over here and get away from Tona 
Tensguard but that's sort of--for the persons who don't know, 
that's inside parliamentary assembly baseball but Ms. Tensgard 
has arrival now on gender issues and that Ms. Moore is 
constantly involved with us.
    Toward that end, we said that we would be here an hour-and-
a-half and we have been. I'd like to say with Mr. Nagisi al-
Hamed, if you would or if you can walk with me, I have to go to 
the Rules Committee. It's been an extraordinarily busy day for 
all of us. We've had not only a fruitful hearing here this 
afternoon but the two days of interaction, in my considered 
opinion, was superb.
    I'd be terribly remiss--the three staffers here on the desk 
with me are persons that were extremely instrumental in causing 
this seminar and hearing to be a success. And I want to take a 
special cognizance of the work of Fred Turner, the staff 
director that many of you have interacted with and continue to 
do so and I hope will as well as Alex Johnson who really was 
the principal author of many of the specifics and the hard work 
that was undertaken. And Marlene Kaufmann who I indicated to 
you earlier did in fact write the resolution that is now law in 
so far as the House of Representatives is concerned in that it 
passed unanimously last night. And I will get for you a copy of 
the Congressional Record that has the statements of members of 
Congress, including our good friend Chris Smith--when I know 
you've got to go, we are all right--our good friend Chris 
Smith, the ranking member of this organization.
    Also, the fine staffers, interns--all of them that did all 
of this extraordinary work--I thank you and compliment you so 
well. It's one of the things that I encourage our partner 
states as well as the participating states to do more of and 
that is to have more young people that are involved as is the 
case at the secretariat of the parliamentary assembly--interns 
that go on to become career professionals in a variety of 
fields dealing with international undertakings.
    President Soares, you mentioned the fact that our partner 
states came in great numbers to the United States elections. 
I'm not one that worries too much about bragging about things 
that I do. But I take full responsibility for asking then-
secretary Colin Powell to change the provisions of the United 
States to allow for election observers to show you how 
important relationships can be and how even though appearances 
may look from time to time as if persons have such serious 
disagreements that they can't come to terms and do things in a 
positive way.
    I was in Russia as an election observer and I went out 
drinking vodka with two of my Russian colleagues. And one of 
them said to me in very serious terms--he says this is your 
third time here in Russia observing our elections and I don't 
have the privilege of observing yours. I took that to heart and 
I came back and for a year, worked with Secretary Powell who 
made that change in 2004 and for the first time, we had 
observers. For me, the loop was closed in 2008 when the same 
person that I had drinks with in Russia that I had drinks with 
him in Fort Lauderdale when he came to observe our elections. 
That's a part of what developing relationships can produce in 
the way of positive results for all of our countries and that's 
why I don't believe that there are any barriers that are 
incapable of being overcome by humankind.
    But I do believe that institutions, not multiplicity of 
institutions, but institutions are greater than humans when it 
comes to collective undertakings. And therefore, I agree with 
my president that the Organization for Security and Cooperation 
and more specifically, its parliamentary assembly, has been a 
dynamic that has been not observed by the overall community 
here in this country as well as in many places in Europe and in 
the Maghreb and elsewhere. But they are doing and have done 
extraordinary work.
    The development of the Mediterranean forum actually came 
from a person that I defeated to be president of the 
parliamentary assembly. The first person that I know that 
mentioned it was a gentleman that I asked to come but he could 
not arrange his calendar--is Michele Voissant from France. 
Followed by a person that I've had considerable disagreements 
with and will continue if he continues his path however in 
Albania recently, in spite of our differences, we worked 
together to assist in making sure that election observation 
went smoothly.
    But the second person that took the lead on this would be 
Bruce George, a parliamentarian from the United Kingdom. And 
that was followed then by my presidency and followed robustly 
by the presidency of Goran Lennmarker and even more so in light 
of the fact that he lives even closer to the region than 
anybody did by now-President Soares. That's how it came about 
in the first place and you can be assured you have four of us 
that were directly involved and have known each other for a 
very long time and see this as vital and critical for stability 
in the Middle East and for peace and prosperity throughout the 
Maghreb and all of our partner states.
    I thank you all for your attention and for being here with 
us. And I say to the partner states that are still here that it 
is our intention to work with the new Kazakh chair in office 
and to continue our efforts to follow up on this seminar. And 
as I said in the meeting, I'm hopeful that all of the six 
states will host a meeting that all of the six countries will 
attend. Thank you.

                                    

  

  

This is an official publication of the

Commission on Security and

Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document

developments and trends in participating

States of the Organization for Security

and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely

reproduced, in any form, with appropriate

credit. The Commission encourages

the widest possible dissemination

of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides

access to the latest press releases

and reports, as well as hearings and

briefings. Using the Commission's electronic

subscription service, readers are able

to receive press releases, articles,

and other materials by topic or countries

of particular interest.

Please subscribe today.
</pre></body></html>
